                 U.S. ELECTION ASSISTANCE 

                        COMMISSION
                OFFICE OF INSPECTOR GENERAL




                            FINAL REPORT:

                 Administration of Payments Received 

                Under the Help America Vote Act by the 

                 Oregon Secretary of State’s Election 

                               Division 



                     MAY 1, 2003 THROUGH AUGUST 1, 2008




Report No.
E-HP-OR-07-08
June 2009
                          U.S. ELECTION ASSISTANCE COMMISSION

                                   OFFICE OF INSPECTOR GENERAL

                                 1225 New York Ave. NW - Suite 1100 

                                       Washington, DC 20005




                                                                                        June 22, 2009

Memorandum


To:         	Thomas Wilkey
            Executive Director

From:	      Curtis W. Crider
            Inspector General

Subject:    Final Audit Report - Administration of Payments Received Under the Help America
            Vote Act by the Oregon Secretary of State’s Election Division
            (Assignment Number E-HP-OR-07-08)

         We contracted with the independent certified public accounting firm of Clifton Gunderson
LLP (Clifton Gunderson) to audit the administration of payments received under the Help America
Vote Act (HAVA) by the Oregon Secretary of State’s Election Division (SOS-ED). The contract
required that the audit be done in accordance with U.S. generally accepted government auditing
standards. Clifton Gunderson is responsible for the attached auditor’s report and the conclusions
expressed therein.

          In its audit of the SOS-ED, Clifton Gunderson concluded that, except for the maintenance
of comprehensive equipment inventories, our audit concluded that the SOS-ED generally accounted
for and expended HAVA funds in accordance with the HAVA requirements and complied with the
financial management requirements established by the U.S. Election Assistance Commission. The
SOS-ED also complied with section 251 requirements.

        In its March 10, 2009 response to the draft report (Appendix A), the SOS-ED agreed with
the report’s finding and recommendations, and provided corrective action.

       Please provide us with your written response to the recommendation included in this report
by August 26, 2009. Your response should contain information on actions taken or planned,
including target dates and titles of EAC officials responsible for implementing the recommendation.

        The legislation, as amended, creating the Office of Inspector General (5 U.S.C. § App.3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented. Therefore, this
report will be included in our next semiannual report to Congress.

         If you have any questions regarding this report, please call me at (202) 566-3125.
                 
                 
     PERFORMANCE AUDIT REPORT
 


ADMINISTRATION OF PAYMENTS RECEIVED
 

             UNDER THE
 

       HELP AMERICA VOTE ACT
 

               BY THE
 

         STATE OF OREGON
 


   May 1, 2003 Through August 31, 2008
 



       UNITED STATES ELECTION
       ASSISTANCE COMMISSION
                   
                   
                   
                   
                   
                   




                     a1 
                                            TABLE OF CONTENTS




                                                                                                                  PAGE
 


EXECUTIVE SUMMARY ................................................................................................ 1



BACKGROUND .............................................................................................................. 2



AUDIT OBJECTIVES...................................................................................................... 2



SCOPE AND METHODOLOGY...................................................................................... 3



AUDIT RESULTS............................................................................................................ 4



APPENDICES
 


Appendix A: Director, Elections Division, Secretary of State Response To
 

            Audit Results .......................................................................................... 6



Appendix B: Audit Methodology.................................................................................. 8



Appendix C: Monetary Impact as of August 31, 2008 .............................................. 10
 

a1


                       U.S. Election Assistance Commission
 

       Performance Audit of the Administration of Payments Received Under the
 

                   Help America Vote Act by the State of Oregon
 


EXECUTIVE SUMMARY

Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General to conduct a performance audit of the Oregon
Secretary of State (SOS) for the period May 1, 2003 through August 31, 2008 to determine
whether the SOS used payments authorized by Sections 101, 102, and 251 of the Help America
Vote Act of 2002 (HAVA or the Act) in accordance with HAVA and applicable requirements;
accurately and properly accounted for property purchased with HAVA payments and for
program income, and met HAVA requirements for Section 251 funds for an election fund and for
a matching contribution. We did not include a determination of whether the SOS and its
subgrantees met the requirements for maintenance of a base level of state outlays because the
Commission is reviewing its guidance on the applicability of the maintenance of a base level of
state outlays to the SOS’s subgrantees.

In addition, the Commission requires states to comply with certain financial management
requirements, specifically:

      •		 Comply with the Uniform Administrative Requirements For Grants And Cooperative
            Agreements With State And Local Governments (also known as the “Common Rule”) as
            published in the Code of Federal Regulations 41 CFR 105-71.

      •		 Expend payments in accordance with cost principles for establishing the allowance or
            disallowance of certain items of cost for federal participation issued by the Office of
            Management and Budget (OMB) in Circular A-87.

      •		 Submit detailed annual financial reports on the use of Title I and Title II payments.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for the maintenance of comprehensive equipment inventories, our audit concluded that
SOS generally accounted for and expended HAVA funds in accordance with the requirements
mentioned above for the period from May 1, 2003 through August 31, 2008. The exception
needing SOS’s management attention is as follows:

            •		 The state needs to improve its controls over equipment purchased with HAVA funds
                to ensure that all equipment is listed in the inventory records at both the state and
                county level, and the listed equipment has the correct identifying information.
11710 Beltsville Drive, Suite 300 
Calverton, MD  20705­3106 


                                                                                     h 
tel:  301­931­2050 
fax: 301­931­1710                                       1
www.cliftoncpa.com		                 Offices in 17 states and Washington, DC 
We have included in this report the SOS managements’ formal response to the draft audit report
dated March 10, 2009. The SOS officials agreed with the recommendations and provided
corrective action.

BACKGROUND

HAVA created the Commission to assist states and insular areas with the improvement of the
administration of Federal elections and to provide funds to states to help implement these
improvements. HAVA authorizes payments to states under Titles I and II, as follows:

    •		 Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
        uniform and nondiscriminatory election technology and administration requirements,
        improving the administration of elections for Federal office, educating voters, training
        election officials and poll workers, and developing a state plan for requirements
        payments.

    •		 Title I, Section 102 payments are available only for the replacement of punch card and
        lever action voting systems.

    •		 Title II, Section 251 requirements payments are for complying with Title III requirements
        for voting system equipment; and for addressing provisional voting, voting information,
        statewide voter registration lists, and voters who register by mail.

Title II also requires that states must:

    •		 Have appropriated funds “equal to 5 percent of the total amount to be spent for such
        activities [activities for which requirements payments are made].” [Section 253(b)(5)].

    •		 “Maintain the expenditures of the State for activities funded by the [requirements] payment
        at a level that is not less than the level of such expenditures maintained by the State for
        the fiscal year ending prior to November 2000.” [Section 254 (a)(7)].

    •		 Establish an election fund for amounts appropriated by the state “for carrying out the
        activities for which the requirements payment is made,” for the Federal requirements
        payments received, for “such other amounts as may be appropriated under law,” and for
        “interest earned on deposits of the fund.” [Section 254 )(b)(1)].

AUDIT OBJECTIVES

The objectives of our audit were to determine whether the Oregon Secretary of State:

    1.	 	Used payments authorized by Sections 101, 102, and 251 of HAVA in accordance with
         HAVA and applicable requirements;

    2.	 	Accurately and properly accounted for property purchased with HAVA payments and for
         program income;




                                                 2


    3.	 	Met HAVA requirements for Section 251 funds for an election fund and for a matching
         contribution. We did not determine whether the SOS met the requirement for
         maintenance of a base level of state outlays, because the Commission is reviewing its
         guidance on the applicability of the maintenance of a base level of state outlays to
         subgrantees of the SOS.
In addition, to accounting for HAVA payments, the Act requires states to maintain records that
are consistent with sound accounting principles that fully disclose the amount and disposition of
the payments, that identify the project costs financed with the payments and other sources, and
that will facilitate an effective audit. The Commission requires states receiving HAVA funds to
comply with certain financial management requirements, specifically:

    1.	 	Comply with the Uniform Administrative Requirements For Grants And Cooperative
         Agreements With State and Local Governments (also known as the “Common Rule”) as
         published in the Code of Federal Regulations at 41 CFR 105-71.

    2.	 	Expend payments in accordance with cost principles for establishing the allowance or
         disallowance of certain items of cost for federal participation issued by the OMB.

    3.	 	Submit detailed annual financial reports on the use of Title I and Title II payments.1

SCOPE AND METHODOLOGY

We audited the HAVA funds received and disbursed by the SOS from May 1, 2003 through
August 31, 2008.

Funds received and disbursed from May 1, 2003 (program initiation date) to August 31, 2008
(64-month period) are shown below:
                              FUNDS RECEIVED                                                                                             
 TYPE OF             EAC     PROGRAM    STATE    INTEREST    TOTAL    FUNDS                                                   DATA 

PAYMENT            PAYMENT  INCOME      MATCH     EARNED    AVAILABLE  DISBURSED                                              AS OF
 
                                                                                                                                  
Section 101        $  4,203,776      $         0      $           0      $     59,198        $4,262,974        $4,262,974     
                                                                                                                             8/31/2008 
Section 102           1,822,758                0                  0            42,128         1,864,886         1,711,406    8/31/2008 
Section 251        27,837,407          30,000           970,000           2,986,207          31,823,614        13,963,586    8/31/2008 
                                                                                                                                         
                   $33,863,941       $30,000          $970,000           $3,087,533         $37,951,474       $19,937,966    8/31/2008 

Notes: 1) The total state matching requirement was $1,465,127, and the state deposited $970,000 into
          the election fund prior to receipt of requirements payments from the EAC. The difference of
          $495,127 was covered by in-kind contributions through payments by the state and counties
          for salaries and benefits of employees working on HAVA qualifying programs. Also, included
          in the Sec. 251 interest earned is $51,545 earned on the state matching funds deposits.

        2) The Sec. 101 interest earned of $59,198 is included in Sec. 101 funds disbursed, and has
           been deducted from the Sec. 251 funds disbursed in the above schedule, because the funds
           were transferred from Sec. 101 to Sec. 251 as all of the Sec. 101 monies were expended.


1  EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and 251 funds. For
Sections 101 and 102, reports are due on February 28 for the activities of the previous calendar year. For Section
251, reports are due by March 30 for the activities of the previous fiscal year ending on September 30.



                                                                3

Our audit methodology is set forth in Appendix B.

AUDIT RESULTS

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for the maintenance of comprehensive property inventories, our audit concluded that
SOS generally accounted for and expended HAVA funds in accordance with the requirements
mentioned above. This includes compliance with section 251 requirements for an election fund.
The SOS has taken action on or is working to resolve the exceptions described below as set
forth in Appendix A:

Property Management

During our testing of the existence of HAVA purchased equipment to the inventory
documentation provided by the Secretary of State staff, we noted that there were discrepancies
at two state locations and at five of nine counties we visited. These discrepancies were
comprised of the following:

       •		 State owned equipment      - 3 items were listed with the wrong serial number.
                                      - 3 items were not listed
                                      - 3 items that were on the inventory were identified as
                                           incompatible equipment and would not be used

       •		 County owned equipment - 18 printers included in bulk purchases not listed on the
                                        inventories
                                  - 10 listed computers, acquired with HAVA funds, were
                                         transferred to a computer training facility and were
                                         replaced with computers purchased with county
                                         funds that were not included on the HAVA
                                         inventory listing
                                  - 2 printers not listed on inventories
                                  - 4 items listed on inventories were not located
                                  - 3 items listed on inventories, but not being used for
                                      HAVA purposes

In accordance with the Uniform Administrative Requirements For Grants And Cooperative
Agreements With State And Local Governments 41 CFR § 105-71.132(b), a State will use,
manage, and dispose of equipment acquired under a grant by the State in accordance with
State laws and procedures. The Oregon SOS’ Business Services Division Desk Manual
contains extensive procedures for recording and tracking Fixed Assets, including the staff
positions responsible for various aspects of the process, to ensure that all assets meeting the
criteria set forth are properly managed and controlled. The policy sets the minimum amount for
capitalization as $5,000; however, items determined to be “walkable” are required to be
inventoried if the cost exceeds $500.


                                               4

The counties must conform to federal rules, and the Uniform Administrative Requirements For
Grants And Cooperative Agreements With State And Local Governments 41 CFR § 105-71.132
Equipment states that property records must be maintained that include a description of the
property, serial number or other identification number, the source of property, who holds the
title, the acquisition date, and costs of the property, percentage of Federal participation in the
cost of the property, the locations, use and condition of the property, and any ultimate
disposition data including the date of disposal and sale price of the property.

Recommendations:

We recommend that the Secretary of State’s Office:

1)	 	Ensures that the property listings of HAVA funded equipment owned by the state reflect
     accurate information as prescribed by the state fixed asset guidelines.

2)	 	Instruct the counties to ensure that the property listings of HAVA funded equipment in their
     possession reflect accurate information as prescribed by 41 CFR 105-71.132.

3)	 	Make an assessment of all idle equipment acquired with HAVA funds at both the state and
     county level to determine appropriate disposition thereof.

SOS’s Response:

The SOS’ Elections Division Director stated that, in general, they agreed with the finding and
recommendations and implemented the following actions:

   1.) The Business Services Division had already taken steps to improve the information
       recorded.

   2.) Copies of 41 CFR 105-71.132 were provided to all county election offices and the SOS’
       HAVA Manager conducted a training session on the subject matter at the February
       2009, Oregon Association of County Clerks.

   3.) The Business Services Division has completed the assessment and counties have been
       instructed on the proper disposition procedures for surplus equipment.


                               ****************************************

We provided a draft of our report to the appropriate individuals of the Oregon Secretary of State,
and the United States Election Assistance Commission. We considered any comments received
prior to finalizing this report.

CG performed its work between October 13, 2008 and October 24, 2008.


a1 
Calverton, Maryland
May 4, 2009


                                                  5

OFFICE OF THE SECRETARY OF STATE 	                                                   ELECfIONS DIVISION

                                                                                     JOHN LINDBACK
       KATE BROWN                                                                       DIRECfOR
        SECRETARY OF STATE
                                                                                255 CAPITOL ST NE, SUITE 501
                                                                                     SALEM, OREGON 97310

                                                                                 ELECfIONS-(503) 986-1518
                                                                                   FAX-(503) 373-7414



March 10, 2009


Mr. Curtis W. Crider

Office of the Inspector General
U.S. Election Assistance Commission
1225 New York Ave. NW - Suite 1100
Washington, DC 20005

Dear Mr. Crider:

This letter is in response to the Notice of Findings and Recommendation resulting from the
recent Help America Vote Act audit activities in Oregon.

As indicted in the January 5, 2009 letter from
                                            6 our HAVA Manager, we agree in general with
the finding and recommendations. Following are our responses to the specific
recommendations:

    1. 	 Ensure that the property listings of HAVA funded equipment owned by the state 
 

         reflect accurate information as prescribed by the state fixed asset guidelines. 
 


Response: We agree, and our Business Services Division has already taken steps to improve
the information recorded.

    2. Instruct the counties to ensure that the property listings of HAVA funded equipment
       in their possession reflect accurate information as prescribed in 41 CFR 105-71.132.

Response: We agree. Copies of 41 CFR 105-71.132 have been provided to all county election
offices and our HAVA Manager provided a training session on the subject at the February,
2009, conference of the Oregon Association of County Clerks.

    3. 	 Make an assessment of all idle equipment acquired with HAVA funds at both the state
         and county level to determine disposition thereof.

Response: We agree, and our Business Services Division has already completed the
assessment and counties have been instructed on the proper disposition procedures for
surplus equipment.

In Appendix C of the report there is a note relating to the anticipated monetary impact of the
sale of unused equipment. All counties have been instructed in the proper procedures
relating to the sale of unused or surplus equipment and understand that funds earned are to
revert to the HAVA Election fund.

On a final note, we would like to thank the Office of the Inspector General for expediting the
Oregon audit so that it would occur prior to Secretary Bradbury's departure from office. We
would also like to thank the auditors assigned to Oregon, Ray Raines and Joe Ansnick of
Clifton Gunderson, for their patience and professionalism. Their questions and comments 

will benefit us in the ongoing management of Oregon's HAVA program. 
 


Please call on this office if you have any further questions. 
 

Sincerely, 


~~
John Lindback
Elections Division Director



cc:    Secretary of State Kate Brown




                                                7
                                                                                        Appendix B
                                    AUDIT METHODOLOGY


Our audit methodology included:

•		 Assessing audit risk and significance within the context of the audit objectives.

•		 Obtaining an understanding of internal control that is significant to the administration of the
    HAVA funds.

•		 Understanding relevant information systems controls as applicable.

•		 Identifying sources of evidence and the amount and type of evidence required.

•		 Determining whether other auditors have conducted, or are conducting, audits of the
    program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed:

•		 Interviewed appropriate SOS employees about the organization and operations of the HAVA
    program.

•		 Reviewed prior single audit report and other reviews related to the state’s financial
    management systems and the HAVA program for the last 2 years.

•		 Reviewed policies, procedures and regulations for the SOS’s management and accounting
    systems as they relate to the administration of HAVA programs.

•		 Analyzed the inventory lists of equipment purchased with HAVA funds.

•		 Tested major purchases and supporting documentation.

•		 Tested randomly sampled payments made with the HAVA funds.

•		 Verified support for reimbursements to local governments (counties, cities, and
    municipalities).

•		 Reviewed certain state laws that impacted the election fund.

•		 Examined appropriations and expenditure reports for state funds used to maintain the level
    of expenses for elections at least equal to the amount expended in fiscal year 2000 and to
    meet the five percent matching requirement for section 251 requirements payments.

•		 Evaluated compliance with the requirements for accumulating financial information reported
    to the Commission on the Financial Status Reports, Form SF-269, accounting for property,
    purchasing HAVA related goods and services, and accounting for salaries.

•		 Verified the establishment and maintenance of an election fund.



                                                 8

•	 Conducted site visits of selected counties to perform the following:

     �   Observe equipment purchased with HAVA funds for proper accounting and
         safeguarding
     �   Test disbursement of HAVA funds for allowability and compliance
     �   Test cash receipts from SOS to ensure proper cash management
     �   Test procurement of voting equipment for competitive bid process
     �   Ensure compliance with HAVA Act.




                                                9


 


                                                                                 Appendix C
                                                                                               


              MONETARY IMPACT AS OF AUGUST 31, 2008
 



                                                Questioned         Additional Funds for
                Description                       Costs                  Program

                                                           $0                          $0

    Totals                                                 $0                          $0
 
 
Note: The only monetary impact anticipated would be the potential recovery of funds through
      the sale of unused equipment, which cannot be determined at this time.




                                             10
 

                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1225 New York Ave. NW - Suite 1100
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
